                                      SOCIAL SECURITY
MEMORANDUM
Date:   September 23, 2003                                                       Refer To: 33266-23-502

To:     The Commissioner

From:   Inspector General

Subject: Top Management Challenges—Fiscal Year 2004



        The Reports Consolidation Act of 2000 requires that we summarize for inclusion in the Social
        Security Administration’s (SSA) Performance and Accountability Report, our perspective on the
        most serious management and performance challenges facing SSA. The challenges in Fiscal
        Year (FY) 2004 have not changed substantially from FY 2003. However, we consolidated
        several related areas to more effectively cover these areas. The top management issues facing
        SSA in FY 2004, as determined by the Office of the Inspector General, are: Social Security
        Number Integrity and Protection, Management of the Disability Process, Improper Payments,
        Budget Performance and Integration, Critical Infrastructure Protection and Systems Security, and
        Service Delivery.

        These areas are dynamic, so we encourage continuous feedback and additional study
        suggestions. This flexibility enables us to meet emerging and critical issues evolving in the
        upcoming year. Our summary of SSA’s progress in addressing these challenges (see attached)
        will be included in the Fiscal Year 2004 Performance and Accountability Report.

        If you have any questions or need additional information, please call me or have your staff
        contact Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                            James G. Huse, Jr.

        Attachment

        cc:
        James B. Lockhart
        Larry Dye
        Larry Love
TOP MANAGEMENT
     CHALLENGES



 FISCAL YEAR 2004
T      he Reports Consolidation Act of 20001
       requires that we summarize, for
       inclusion in the Social Security
Administration’s (SSA) Performance and
                                                The Office of the Inspector General (OIG)
                                                believes the management challenges facing
                                                SSA in FY 2004 are as follows.

Accountability Report, our perspective on the
most serious management and performance
challenges facing SSA.

The challenges facing SSA management in                  TOP MANAGEMENT
Fiscal Year (FY) 2004 have not changed
substantially from FY 2003. However, we                    CHALLENGES
consolidated several related areas to more
                                                   Social Security Number Integrity
effectively cover these areas. For example,
Social Security Number Integrity and               and Protection
Protection now covers the former areas of          Management of the Disability
Homeland Security, Social Security Number
(SSN) Integrity and Misuse, and Integrity of
                                                   Process
the Earnings Reporting Process. Our Service        Improper Payments
Delivery issue area now includes Human
Capital, E-Government, and representative          Budget and Performance
payee issue areas. We also eliminated the          Integration
Fraud Risk issue area since potentially there
are elements of fraud risk in each management      Critical Infrastructure Protection
challenge.                                         and Systems Security
                                                   Service Delivery




1
    Pub. L. No. 106-531.


                                  Top Management Challenges
                                             1
 S      ince 1997, we have provided our
        perspective on these management
        challenges to Congress, SSA and other
 key decisionmakers. In developing this year’s
                                                        •



                                                        •
                                                            SSA’s progress in responding to the Office
                                                            of Management and Budget’s (OMB)
                                                            Scorecard,
                                                            the Inspector General’s Strategic Plan,
 list, we considered the four initiatives the
 Commissioner has identified as priorities:             •   the high-risk list prepared by the General
 Service, Stewardship, Solvency, and Staff.                 Accounting Office (GAO), and

 We also reviewed                                       •   our body of audit and investigative work.

 •   the most significant issues as outlined in the     Finally, we prepared a crosswalk to ensure
     President’s Management Agenda (PMA),               there was no disconnect or gap among those
                                                        reviewing SSA’s programs and operations.



              Crosswalk of PMA to Commissioner Priorities, OIG Management Challenges,
 Crosswalk of Presidential Management Agenda (PMA) to Commissioner Priorities, Office of the Inspector
                        Social Security
         General Management             Advisory
                               Challenges,         Board,Advisory
                                           Social Security and GAO  Challenges
                                                                  Board, and GAO Challenges
     PMA         Commissioner     OIG Major Management           Social Security     GAO Performance and
     PMA            Priorities         Challenges                Advisory Board     Accountability Challenges
Expanded         Service         Service Delivery               Service to the      Service Delivery
Electronic                                                      Public
Government                       − E-Government                                     Improve the DDS
                                                                                                Disability
                                                                                                     Process
                                                                                    Determination Service
                                                                                    and Return to Work
                                 − Representative
                                   Rep Payee      Payee                             Process and Return to Work
                                 − Human Capital
                                 Management of the
                                                                Disability Reform   Disability
                                                                                    DI—High Insurance—
                                                                                               Risk
                                 Disability Process
                                                                                    High Risk
Improved         Stewardship     Improper Payments              Social Security     Supplemental Security
Improved         Stewardship     Improper Payments              SSN Case            Supplemental Security
Financial                                                       Number Case         Income*
Financial                        Critical Infrastructure        Handling Quality    Income
Performance      Solvency        Critical Infrastructure        Handling Quality
Performance      Solvency        Protection/Systems Security                        Information Security
                                 Protection and Systems         SSN Misuse          Information Security
Competitive                                                     SSN Misuse
Competitive                      SSN Integrity and Protection
                                 Security
Sourcing                         (Homeland Security and
Sourcing                         SSN Integrity and Protection
                                 Earnings)
Budget and                       Budget Performance and
Budget and                       Budget Performance and
Performance                      Integration
Performance                      Integration
Integration
Integration
Strategic        Staffing        Service Delivery               Staffing            Human Capital
Strategic        Staff           Service Delivery               Staffing            Human Capital—High Risk
Management                                                      − Hiring
Management                       − Human Capital                − Hiring
of Human                         − Human Capital                − Training
of Human                                                        − Training
Capital                                                         − Management
Capital                                                         − Management
                                                                − Measurement
                                                                − Work
                                                                  Measurement




                                     Top Management Challenges
                                                2
   SOCIAL SECURITY NUMBER                         enumeration process. Likewise, additional
                                                  techniques, such as data mining, biometrics,
  INTEGRITY AND PROTECTION                        and enhanced systems controls, are critical in
   In FY 2002, SSA issued about 18 million        the fight against SSN misuse.
original and replacement SSN cards, and SSA
    received approximately $524 billion in        To effectively combat SSN misuse, we
 employment taxes related to earnings under       believe SSA should
                issued SSNs.
                                                  •   establish a reasonable threshold for the
The SSN is the single most widely used                number of replacement SSN cards an
identifier for Federal and State governments          individual may obtain during a year and
as well as the private sector. In FY 2002,            over a lifetime,
SSA issued about 18 million original and          •   expedite systems controls that would
replacement SSN cards, and SSA received               interrupt SSN assignment when SSA
approximately $524 billion in employment              mails multiple cards to common addresses
taxes related to earnings under issued SSNs.          or when parents claim an improbably
Protecting the SSN and properly posting the           large number of children,
wages reported under SSNs are critical to
ensuring eligible individuals receive the full    •   continue to address identified weaknesses
retirement, survivor and/or disability benefits       within its information security
due them.                                             environment to better safeguard SSNs,
                                                      and
Unfortunately, the SSN is often misused.          •   continue to educate SSA staff about
And identity theft is not just about                  counterfeit documents.
individuals. While being the immediate
victim of identity theft and SSN misuse can       Integrity of the Earnings Process
cause individuals years of difficulty, it also
brings cost to financial and commercial           The integrity of the SSN is also related to
institutions, which is ultimately passed on to    SSA’s process for posting workers’ earnings.
consumers. Worse yet, SSN misuse can              The proper posting of earnings ensures that
disguise a dangerous felon or a would-be          eligible individuals receive the full retirement,
terrorist as a law-abiding citizen. That de       survivor and/or disability benefits due them.
facto national identifier can provide a           If earnings information is reported incorrectly
criminal the identification and seeming           or not reported at all, SSA cannot ensure all
legitimacy he or she needs to go about            eligible individuals are receiving the correct
nefarious business, perhaps putting dozens,       payment amounts. In addition, SSA’s
hundreds, or even thousands of lives in           disability programs under the Disability
jeopardy.                                         Insurance (DI) and Supplemental Security
                                                  Income (SSI) provisions depend on this
Protecting the Social Security Number             earnings information to determine (1) whether
                                                  an individual is eligible for benefits and
To ensure the integrity of the SSN, SSA must      (2) the size of the disability payment.
focus on three stages of protection: (1) when
the SSN card is issued, (2) during the life of    SSA spends scarce resources trying to correct
the SSN cardholder, and (3) upon the SSN          the earnings data when incorrect information
cardholder’s death. Furthermore, SSA must         is reported. The Earnings Suspense File
employ effective front-end controls in its        (ESF) is the Agency’s record of annual wage

                                  Top Management Challenges
                                             3
reports for which wage earners’ names and        •   locating systemic weaknesses that
SSNs fail to match SSA’s records. Between            contribute to SSN misuse, such as in the
1937 and 2000, the ESF grew to represent             enumeration and earnings-related
about $374 billion in wages, which included          processes;
approximately 236 million wage items with
                                                 •   recommending legislative or other
an invalid name and SSN combination. As of
                                                     corrective actions to ensure the SSN’s
July 2002, SSA had posted 9.6 million wage
                                                     integrity; and
items to the ESF for Tax Year 2000,
representing about $49 billion in wages.         •   pursuing criminal and civil enforcement
                                                     provisions for individuals misusing SSNs.
While SSA has limited control over the
factors that cause the volume of erroneous       This Team will also partner with external
wage reports submitted each year, there are      private and public sector organizations not
still areas where SSA can improve its            only to educate, but to pursue mutually
processes. SSA can improve wage reporting        beneficial activities to prevent and detect
by educating employers on reporting criteria,    fraudulent use of SSNs.
identifying and resolving employer reporting
problems, and encouraging greater use of the
Agency’s SSN verification programs. SSA
also needs to improve coordination with other
Federal agencies with separate, yet related,
mandates. For example, SSA’s ability to
improve wage reporting is related to the
Internal Revenue Service’s failure to sanction
employers for submitting invalid wage data.
It is also related to the complicated employer
procedures the Bureau of Citizenship and
Immigration Services uses to verify eligible
employees.

Social Security Number Integrity Protection
Team

Finally, pending funding, we will be
establishing an SSN Integrity Protection
Team (Team) to address the escalating issue
of SSN misuse. The Team is an integrated
approach that combines the talents of our
auditors, investigators, computer specialists,
analysts, and attorneys. In addition to
supporting homeland security initiatives, the
Team will focus its efforts on
•   identifying patterns and trends of SSN
    misuse;




                                  Top Management Challenges
                                             4
       MANAGEMENT OF THE                            •   legislation or Federal regulations rescind a
                                                        prior disabling condition from qualifying
       DISABILITY PROCESS                               for benefits,
  SSA has tested several improvements to the        •   a child turns 18 years old and is no longer
    disability claims process. To date, these           considered disabled under adult criteria,
   initiatives have not resulted in significant
 improvement. In January 2003, GAO added            •   an individual returns to work and has
     the modernizing of Federal disability              income over SSA’s allowable amount, or
     programs, to include SSA’s disability          •   a continuing disability review shows the
          programs, to its high-risk list.              individual is no longer disabled.
SSA administers the DI and SSI programs             SSA’s Office of Hearings and Appeals
that provide benefits based on disability.          (OHA) is responsible for holding hearings
Most disability claims are initially processed      and issuing decisions in SSA’s appeals
through a network of Social Security field          process. OHA’s field structure consists of
offices and State Disability Determination          10 regional offices and 140 hearing offices.
Services (DDS). SSA representatives in the          Administrative law judges (ALJ) hold
field offices are responsible for obtaining         hearings and issue decisions in hearing offices
applications for disability benefits and            nationwide. In FY 2002, hearing offices
verifying non-medical eligibility                   processed over 500,000 cases, and the
requirements, which may include age,                average processing time was 336 days.
employment, marital status, or Social Security
coverage information. After initial                 The Appeals Council is the final level of
processing, the field office sends the case to a    administrative review for claims filed under
DDS for evaluation of disability.                   SSA’s disability programs. The Appeals
                                                    Council reviews ALJ decisions and dismissals
The DDSs, which SSA fully funds, are State          upon the claimant’s timely request for review.
agencies responsible for developing medical         In FY 2002, the Appeals Council processed
evidence and rendering the determination of         115,467 cases, and the average processing
whether the claimant is disabled or blind.          time was 412 days.
After the DDS makes the disability
determination, it returns the case to the field     Over the last several years, SSA has tested
office for appropriate action depending on          improvements to the disability claims process
whether the claim is allowed or denied. In          as a result of concerns about the timeliness
FY 2002, over 2 million initial disability          and quality of customer service. The
claims were processed, and the average              disability improvements combine initiatives
processing time was 104 days.                       that have been tested and piloted and include
                                                    all levels of eligibility determination—
Once SSA establishes an individual is eligible      beginning with State DDSs and going through
for disability benefits under either the DI or      the hearings and appeals processes.
SSI program, the Agency turns its efforts
toward ensuring the individual continues to
receive benefits only as long as SSA’s
eligibility criteria are met. Disability benefits
will not continue if any of the following
occur:


                                   Top Management Challenges
                                              5
                                                   disabled individuals to ensure those
To date, these initiatives have not resulted in
                                                   individuals who are no longer disabled are
significant improvements in the disability
                                                   removed from the disability roles.
claims process, and, in January 2003, GAO
added the modernizing of Federal disability        SSA, in conjunction with our office, has taken
programs, including SSA’s, to its 2003 high-       an active role in addressing the integrity of
risk list. The Commissioner recently               the disability programs through the
announced several decisions on the future of       Cooperative Disability Investigations (CDI)
SSA’s disability process. This included the        program. The CDI program’s mission is to
Commissioner’s decisions to                        obtain evidence that can resolve questions of
                                                   fraud in SSA’s disability programs. SSA’s
•   pursue the expansion of the Single-
                                                   Offices of Operations, Disability Programs,
    Decision Maker authority nationwide,
                                                   and Disability Determinations along with the
•   end the requirements for the claimant          OIG manage the CDI program. There are
    conference in sites testing the prototype      17 CDI units operating in 16 States. From
    disability process,                            October 1, 2002 through March 31, 2003, the
                                                   CDI units saved SSA about $44 million by
•   evaluate the elimination of the                identifying fraud and abuse in the disability
    reconsideration level of the claims process    program before benefits were paid.
    nationwide,

•   make additional improvements to the
    hearings process, and

•   implement an Electronic Disability
    System by 2004.

SSA reports that its short-term initiatives have
improved the hearings process. The short-
term initiatives include expedited techniques
for the review of cases and technology
enhancements designed to improve the
timeliness of decisions. Furthermore, SSA
expects the electronic disability system to
provide OHA a more efficient and effective
case processing system when implemented.

Disability Fraud

Fraud is an inherent risk in SSA’s disability
programs. Some unscrupulous people view
SSA’s disability benefits as money waiting to
be taken. A key risk factor in the disability
program is individuals who feign or
exaggerate symptoms to become eligible for
disability benefits. Another key risk factor is
the monitoring of medical improvements for

                                  Top Management Challenges
                                             6
       IMPROPER PAYMENTS                         Under this law, agencies that administer
                                                 programs where the risk of erroneous
Determining and paying accurate and timely       payments is significant2 must estimate their
program benefits are primary commitments of      annual amount of improper payments and
SSA, along with good stewardship of the trust    report this information in their Performance
    fund and the General Revenue fund.           and Accountability Report for FYs ending on
SSA is responsible for issuing benefit           or after September 30, 2004. OMB will use
payments under the Old-Age, Survivors, and       this information while working with the
Disability Insurance (OASDI) and SSI             agencies to establish goals for reducing
programs. In FY 2002, SSA issued                 erroneous payments for each program.
$483 billion in benefit payments to
53.1 million beneficiaries. Considering the      SSA and the OIG have had on-going
volume and amount of payments SSA makes          discussions on improper payments—on such
each month, even the slightest error in the      issues as detected vs. undetected improper
overall process can result in millions of        payments and avoidable overpayments vs.
dollars in over- or underpayments.               unavoidable overpayments which are outside
                                                 the Agency’s control and a “cost of doing
Improper payments are defined as payments        business.” In August 2003, OMB issued
that should not have been made or were made      specific guidance to SSA to only include
for incorrect amounts. Examples of improper      avoidable overpayments in the Agency’s
payments include inadvertent errors,             improper payment estimate because these
payments for unsupported or inadequately         payments could be reduced through changes
supported claims, payments for services not      in administrative actions. Unavoidable
rendered, or payments to ineligible              overpayments that result from legal or policy
beneficiaries. The risk of improper payments     requirements are not to be included in SSA’s
increases in programs with (1) a significant     improper payment estimate.
volume of transactions, (2) complex criteria
for computing payments, and/or (3) an            In September 2003, the OIG issued an Issue
overemphasis on expediting payments. Since       Paper on improper payments—where we
SSA is responsible for issuing timely benefit    analyzed overpayments from SSA, other
payments for complex entitlement programs        Federal agencies, and private sector disability
to over 50 million individuals, SSA is at-risk   insurers. Based on this work, we plan to
of making significant improper payments.         initiate a comprehensive and statistically valid
                                                 review in FY 2004 to quantify the amount of
The President and Congress have expressed        undetected overpayments SSA’s disability
interest in measuring the universe of improper   programs—with a focus on the four diagnosis
payments within the Government.                  groups we believe (based on prior audit and
Specifically, in August 2001, OMB published      investigative work) are problematic.
the FY 2002 PMA, which included a                Additionally, preliminary results from one of
Government-wide initiative for improving         our audits at the end of FY 2003 show
financial performance. In November 2002,         significant overpayments—related to earnings
the Improper Payments Information Act of         by disabled beneficiaries—went undetected
2002 was enacted, and OMB issued guidance        by SSA. This work and other studies—such
in May 2003 on implementing this new law.
                                                 2
                                                  OMB defines significant overpayments as annual
                                                 overpayments that exceed both 2.5 percent of program
                                                 payments and $10 million.

                                 Top Management Challenges
                                            7
as one to assess whether overpayment waivers
were appropriate—will be completed and/or
initiated in FY 2004 and beyond to address
the issue of improper payments.

SSA has undertaken many projects to identify
and improve areas where it could do more to
reduce improper payments and/or recover
amounts overpaid. Specifically, SSA has
been working to improve its ability to prevent
over- and underpayments by obtaining
beneficiary information from independent
sources sooner and/or using technology more
effectively. In this regard, SSA has initiated
new computer matching agreements, obtained
on-line access to wage and income data, and
implemented improvements in its debt
recovery program.

Working with SSA, we have made great
strides in reducing benefit payments to
prisoners and SSI payments to fugitive felons,
and these efforts continue. However,
improper payments, including those to
deceased beneficiaries, students, and
individuals receiving State workers’
compensation benefits, continue to drain the
Social Security trust fund.




                                 Top Management Challenges
                                            8
  BUDGET AND PERFORMANCE                         In accordance with GPRA, SSA has set forth
                                                 its mission and strategic goals in 5-year
       INTEGRATION                               strategic plans, established yearly targets in its
  Our work has demonstrated that SSA is          annual performance plans, and reported on its
 generally committed to the production and       performance in its annual performance
 use of reliable performance and financial       reports. Each year, we conduct audits to
 management data, but some improvements          assess the reliability of SSA’s performance
   would further enhance SSA’s ability to        data and evaluate the extent to which SSA’s
     produce accurate and actionable             performance plan describes its planned and
         management information.                 actual performance meaningfully.
This area encompasses SSA’s efforts to           In addition to performance audits, we perform
provide timely, useful and reliable data to      and monitor audits of SSA’s financial
assist internal and external decisionmakers in   statements and other financial-related audits
effectively managing Agency programs, as         of SSA’s operations. Our work includes
well as both evaluating performance and          comprehensive technical and administrative
ensuring the validity and reliability of         oversight of the annual audit of SSA’s
performance, budgeting, and financial data.      financial statements, performed by an
                                                 independent public accountant. We also
To effectively meet its mission, manage its      perform reviews of the quality of single audits
programs, and report on its performance, SSA     conducted by State auditors and public
needs sound performance and financial data.      accounting firms. Additionally, we conduct
Congress, other external interested parties,     administrative cost audits of State DDSs,
and the general public also want sound data to   which assist SSA with its disability workload.
monitor and evaluate SSA’s performance.          This body of work helps assess the validity
SSA relies primarily on internally generated     and reliability of the financial data SSA relies
data to manage the information it uses to        on to manage its programs and meet its
administer its programs and report to            mission.
Congress and the public. The necessity for
good internal data Governmentwide has            The integrity of SSA’s programs and those
resulted in the passage of several laws and      that rely on information from SSA depend on
regulations to make Government more              the reliability and quality of the Agency’s
accountable. The Chief Financial Officers        data. External data and data exchanges are
Act of 1990, as amended; the Government          critical to SSA’s programs and are the focus
Management Reform Act of 1994; and the           of many of our audits. Therefore, it is
Government Performance and Results Act           imperative that SSA’s data be reliable.
(GPRA) were passed to create an
environment of greater accountability within     Considering the critical role of the underlying
Federal agencies.                                data in all of SSA’s performance, financial,
                                                 and data-sharing activities, it is crucial that
                                                 the Agency have clear processes in place to
                                                 ensure the reliability and integrity of its data.




                                 Top Management Challenges
                                            9
     CRITICAL INFRASTRUCTURE                      Presidential Decision Directive 63, issued in
                                                  1998, requires that Federal agencies identify
     PROTECTION AND SYSTEMS                       and protect their critical infrastructure and
             SECURITY                             assets. The information SSA needs to
    SSA’s information security challenge is to    conduct its mission is one of its most valuable
        understand and mitigate system            assets. The Agency is depending on
                vulnerabilities.                  technology to meet the challenges of
                                                  increasing workloads with fewer resources. A
The Government has a major responsibility         physically and technologically secure Agency
for public health and safety. Dramatic and        information infrastructure is a fundamental
widespread harm would result should its           requirement.
systems be compromised. Therefore, it is
imperative that the Nation’s critical             Growth in computer interconnectivity brings a
information infrastructure, which is essential    heightened risk of disrupting or sabotaging
to the operations of the economy and              critical operations, reading or copying
Government, be protected. These systems           sensitive data, and tampering with critical
include, but are not limited to the following.    processes. Those who wish to disrupt or
                                                  sabotage critical operations have more tools
•     Telecommunications                          than ever.
•     Energy                                      SSA’s information security challenge is to
•     Banking and finance                         understand and mitigate system
                                                  vulnerabilities. At SSA, this means ensuring
•     Transportation                              its critical information infrastructure, such as
                                                  access to the Internet and the networks, is
•     Water systems
                                                  secure. By improving systems security and
•     Facility and personnel security             controls, SSA will be able to use current and
                                                  future technology more effectively to fulfill
•     Emergency services, both Federal and        the public’s needs. The public will not use
     private sector                               electronic access to SSA services if it does
                                                  not believe those systems are secure.
Many of the Nation’s critical infrastructures
have historically been physically and logically   SSA addresses critical information
separate systems that had little                  infrastructure and systems security in a
interdependence. Through advances in              variety of ways. It created a Critical
information technology and improved               Infrastructure Protection work group that
efficiency, however, these infrastructures        continually works toward compliance with
have become increasingly automated and            Presidential Decision Directive 63. SSA has
interconnected. These same advances have          several other components throughout the
created new vulnerabilities to equipment          organization that handle systems security
failures, human error, weather and other          including the newly created Office of
natural disasters, and physical cyber-attacks.    Information Technology Security Policy
                                                  within the Office of the Chief Information
Addressing these vulnerabilities will require     Officer. SSA also routinely releases out
flexible, evolutionary approaches that span       security advisories to its employees and has
the public and private sectors and protect both   hired outside contractors to provide expertise
domestic and international security.              in this area.


                                  Top Management Challenges
                                            10
                                                  By 2005, SSA is expected to make 60 percent
          SERVICE DELIVERY                        of its customer-initiated services available
     Given the complexity of the Agency’s         through automated telephone services or the
programs, the billions of dollars in payments     Internet. The Agency recently began
at stake, and the millions of citizens who rely   allowing the public to file DI claims through
on SSA, we must ensure that quality, timely,      the Internet to help achieve its service
  and appropriate services are consistently       delivery goals. SSA expects to begin a
       provided to the public-at-large.           nation-wide roll-out of its Electronic
The delivery of service to the American           Disability System in 2004. There are always
people poses a significant challenge that SSA     risks involved in conducting electronic
is compelled to address. The Agency’s goal        commerce, despite the Agency’s efforts to
of “service” encompasses traditional and          identify and mitigate them. SSA will have to
electronic services to applicants for benefits,   keep privacy and security concerns at the
beneficiaries and the general public. It also     forefront of its planning efforts.
includes services to and from States, other
agencies, third parties, employers, and other     Representative Payee Challenges
organizations including financial institutions
                                                  A specific challenge in this area is
and medical providers. This goal supports the
                                                  maintaining the integrity of the representative
delivery of “citizen-centered” services and
                                                  payee process. When SSA determines a
use of “E-Government,” and therefore affords
                                                  beneficiary cannot manage his/her benefits,
SSA opportunities to advance these levels of
                                                  SSA selects a representative payee, who must
service. Given the complexity of the
                                                  use the payments for the beneficiary’s benefit.
Agency’s programs, the billions of dollars in
                                                  There are about 5.3 million representative
payments at stake, and the millions of citizens
                                                  payees who manage benefit payments for
who rely on SSA, we must ensure that
                                                  6.7 million beneficiaries. While
quality, timely, and appropriate services are
                                                  representative payees provide a valuable
consistently provided to the public-at-large.
                                                  service for beneficiaries, SSA must provide
E-Government Challenges                           appropriate safeguards to ensure they meet
                                                  their responsibilities to the beneficiaries they
The PMA also calls for improved service           serve.
delivery through the use of E-Government in
creating more cost-effective and efficient
ways to provide service to citizens. The
increased use of E-Government will be
essential to help address the Agency’s
expected future loss of institutional
knowledge accompanied by the increased
services expected with the aging of the baby-
boom generation. Future service delivery
challenges include providing electronic
services over the Internet and telephone,
24 hours a day, 7 days a week. It will be the
norm for business transactions to be
processed electronically.



                                 Top Management Challenges
                                            11
Since FY 2001, we have completed numerous        At current staffing levels, SSA finds it
audits of representative payees. Our audits      difficult to maintain an acceptable level of
identified                                       service, especially in its most complicated
                                                 workloads. After downsizing and curtailing
•   deficiencies with the financial              investments in human capital (people), the
    management of, and accounting for,           Government is facing a major challenge to
    benefit receipts and disbursements;          meet the current and emerging needs of the
                                                 Nation’s citizens.
•   vulnerabilities in the safeguarding of
    beneficiary payments;

•   poor monitoring and reporting to SSA of
    changes in beneficiary circumstances;

•   inappropriate handling of beneficiary-
    conserved funds; and

•   improper charging of fees.

Human Capital Challenges

Many agencies, including SSA, share the
challenge to address human capital shortfalls.
The critical loss of institutional skills and
knowledge, combined with greatly increased
workloads at a time when the baby-boom
generation will require its services, must be
addressed by succession planning, strong
recruitment efforts, and the effective use of
technology as previously discussed.

In January 2001, GAO added strategic human
capital management to its list of high-risk
Federal programs and operations. By 2010,
workloads are anticipated to increase to
unprecedented volumes. Along with the
workload increase, the incredible pace of
technological change will have a profound
impact on both the public’s expectations and
SSA’s ability to meet those expectations.




                                  Top Management Challenges
                                            12
